CERTIFICATE OF WORD COUNT
NO. 20-1668
City of Tahlequah, et al.,
Petitioners,
v.
Austin P. Bond, as Special Administrator of the Estate of Dominic F. Rollice, Deceased,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the THE NATIONAL SHERIFFS’
ASSOCIATION MOTION FOR LEAVE TO FILE AND AMICUS BRIEF AT PETITION STAGE IN SUPPORT OF
PETITIONERS contains 4780 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
June 17, 2021

SCP Tracking: Champagne-260 Judge Edward Dufresne Parkway-Cover Cream

